No. 20-297

In the Supreme Court of the United States
TRANS UNION LLC,
Petitioner,
v.
SERGIO L. RAMIREZ,
Respondent.
CERTIFICATE OF COMPLIANCE
I, Andrew J. Pincus, counsel for Amici The Chamber of Commerce of the United
States of America and National Federation of Independent Business, hereby certify
that, according to the word-count tool in Microsoft Word, the Brief of the Chamber of
Commerce of the United States of America and National Federation of Independent
Business as Amici Curiae In Support of Petitioner consists of 7,956 words, including
footnotes and excluding the sections enumerated by Rule 33.1(d). The Brief therefore
complies with Rule 33.1(g).

/s/ Andrew J. Pincus
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, N.W.
Washington, D.C. 20006-1101
(202) 263-3000
apincus@mayerbrown.com

